              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report


Unauthorized Handguns on the Nevada
Test Site




DOE/IG-0674                                        February 2005
UNAUTHORIZED HANDGUNS ON THE NEVADA TEST SITE



TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objectives        1

              Observations and Conclusions       2


              DETAILS OF FINDINGS

              Handguns on the Nevada Test Site   3

              Property Controls                  4

              Issuance of Firearms               4


              RECOMMENDATIONS                    6

              MANAGEMENT COMMENTS                7

              INSPECTOR COMMENTS                 7


              APPENDICES

              A. Scope and Methodology           8

              B. Management Comments             9
Overview

INTRODUCTION AND   Within the Department of Energy (DOE), the National Nuclear
OBJECTIVES         Security Administration’s (NNSA’s) Office of Secure
                   Transportation (OST) is responsible for providing the safe and
                   secure transport of nuclear weapons, special nuclear materials, and
                   weapons components between DOE production facilities and
                   Department of Defense facilities via surface and air modes of
                   transportation. OST uses the Department’s Nevada Test Site
                   (NTS), which is located near Las Vegas, Nevada, for various
                   training and related exercises. The NNSA’s Nevada Site Office is
                   responsible for the management of the NTS.

                   The Office of Inspector General (OIG) received allegations from an
                   OST official related to the transport of handguns by OST-affiliated
                   personnel between Albuquerque, New Mexico, and Nevada, in
                   conjunction with a Joint Training Exercise involving OST that was
                   held at the NTS. One allegation involved two contractor employees
                   transporting privately owned and Government owned handguns on
                   board an NNSA flight from Albuquerque to Las Vegas in October
                   2003. We addressed this allegation in our report entitled
                   “Unauthorized Handguns on National Nuclear Security Administration
                   Aircraft” (DOE/IG-0654, July 2004).

                   We were also informed that two individuals may have improperly
                   transported Government and privately owned handguns onto the NTS.
                   One of the individuals was an OST Federal employee, and the other
                   was an employee of Wackenhut Services, Inc., an OST contractor
                   providing support personnel to handle logistical aspects of the
                   exercise.

                   Interviews confirmed that the Federal employee and the Wackenhut
                   employee brought Government and privately owned handguns onto the
                   NTS. We determined that the Government owned handguns involved
                   were 2 of 19 OST firearms that were relocated from the OST armory
                   at Fort Chaffee, Arkansas, to the DOE National Training Center
                   (NTC) armory in Albuquerque in June 2001. The firearms were
                   relocated to the NTC to enable OST firearms instructors to perform
                   required weapons certifications.

                   The objectives of our inspection were to determine if: (1) the Federal
                   and contractor employees violated DOE policy when they brought
                   Government and privately owned handguns onto the NTS; and
                   (2) internal controls were adequate for the control and accountability
                   of the 19 OST firearms stored at the NTC.




Page 1                                   Unauthorized Handguns on the
                                         Nevada Test Site
OBSERVATIONS      Based on the findings in this inspection and our inspection on
AND CONCLUSIONS   “Unauthorized Handguns on National Nuclear Security
                  Administration Aircraft,” we concluded that DOE policies and
                  procedures relating to firearms were systematically violated by
                  OST-affiliated personnel. In both inspections, we identified issues
                  regarding controls over firearms and instances where unauthorized
                  firearms were introduced into controlled security areas. Specific to
                  this inspection, we found that:

                     •   The OST Federal employee and the Wackenhut employee
                         brought two Government owned and two privately owned
                         handguns onto the NTS without proper authorization.

                     •   Although both the OST Fort Chaffee armory and the NTC
                         armory have internal control policies and procedures, OST
                         had not identified the policies and procedures that were to
                         apply to the 19 firearms relocated to the NTC armory in
                         June 2001, which remained OST firearms.

                     •   The two Government handguns were signed out of the
                         NTC armory without following either NTC or OST armory
                         requirements for the issuance of firearms; the two handguns
                         were passed among several individuals, including a private
                         citizen with no formal tie to DOE, without following chain-
                         of-custody requirements; and the two handguns were stored
                         off-site without authorization.




Page 2                                            Observations and Conclusions
Details of Findings

HANDGUNS ON THE       We found that the OST Federal employee and the Wackenhut
NEVADA TEST SITE      employee brought two Government owned and two privately
                      owned handguns onto the NTS without proper authorization.
                      Access to the NTS is controlled by armed Wackenhut security
                      police officers, and the access point is posted with a list of
                      prohibited articles that require prior authorization for admittance,
                      which includes firearms. We determined that the posting was
                      predicated on 10 CFR Part 860, TRESPASSING ON
                      DEPARTMENT OF ENERGY PROPERTY, which states that
                      “Unauthorized carrying, transporting, or otherwise introducing or
                      causing to be introduced any dangerous weapon . . . into or upon
                      any facility, installation or real property subject to this part, is
                      prohibited.”

                      The Federal employee told us that he had declared his privately
                      owned handgun to a security police officer at the NTS access point
                      prior to transporting it, along with ammunition, onsite in his
                      personal vehicle. We interviewed the 18 Wackenhut NTS security
                      personnel who were on duty during the time frame that the Federal
                      employee carried his privately owned handgun onto the NTS, and
                      no one recalled the employee declaring the weapon. Further,
                      despite existing requirements, there was no documentation
                      authorizing the weapon to be taken onsite. The Wackenhut
                      employee told us that he carried his privately owned handgun and
                      the two Government owned handguns, along with ammunition,
                      onsite in his briefcase, acknowledging that he did not declare the
                      handguns to the NTS security police officers.

                      In pursuing why the Federal employee brought his personal
                      weapon to the NTS, we determined that he had arranged for a
                      Wackenhut employee at NTS to perform repairs on the weapon.
                      We concluded that, in so doing, the Federal employee may have
                      violated the Federal Standards of Ethical Conduct for Employees
                      of the Executive Branch, which is found at 5 CFR Part 2635.
                      5 CFR Part 2635 states that “An employee shall not use . . . his
                      Government position or title or any authority associated with his
                      public office in a manner that is intended to coerce or induce
                      another person, including a subordinate, to provide any
                      benefit . . . .” It also states that “An employee has a duty to protect
                      and conserve Government property and shall not use such
                      property, or allow its use, for other than authorized purposes.”
                      According to the standards, Government property specifically
                      includes intangible interests that are purchased with Government
                      funds, including the services of contractor personnel. In this case,



Page 3                                                             Details of Findings
                          a Wackenhut employee, working under a contract that provided
                          support services to OST, repaired the privately owned weapon at a
                          Government facility.

PROPERTY CONTROLS We found that although both the OST Fort Chaffee armory and the
                  NTC armory have internal control policies and procedures, OST
                  had not identified the policies and procedures that were to apply to
                  the 19 firearms relocated to the NTC armory in June 2001, which
                  remained OST firearms.

                          The DOE Property Management Regulations (DOE-PMR) defines
                          firearms as sensitive items that are susceptible to being
                          appropriated for personal use or that can be readily converted to
                          cash. The DOE-PMR requires that property managers establish
                          standard practices for the control of sensitive items that include
                          inventory procedures and reporting requirements; the use of
                          receipts or custody documents at the time of assignment or change
                          of custody; and policies and procedures regarding the issuance and
                          return of firearms under all circumstances.

                          Both the OST Fort Chaffee armory and the NTC armory have
                          standard operating procedures governing their respective armories
                          and the accountability of firearms. However, when the 19 OST
                          firearms were relocated to the NTC, OST did not specify the
                          policies and procedures that would apply to the firearms or which
                          organization would be responsible for such things as required
                          firearm inventories and accountability documentation.

                          In our view, this resulted in a lack of control over the 19 firearms
                          and exposed these weapons to possible theft, loss, or misuse. For
                          example, required monthly inventories of the firearms were not
                          always performed after they were relocated to the NTC in June
                          2001. We identified a 55-day period between September and
                          November 2003 when no inventories were performed. It was
                          during this 55-day period that the Wackenhut employee
                          transported the two Government owned handguns to the NTS.

ISSUANCE OF               We found that the two Government owned handguns were signed
FIREARMS                  out of the NTC armory without following either NTC or OST
                          armory requirements for the issuance of firearms. Also, the two
                          handguns were passed among several individuals, including a
                          private citizen with no formal tie to DOE, over a 25-day period
                          without following chain-of-custody requirements. Further, the two
                          handguns were stored off-site without authorization.



Page 4                                                                Details of Findings
Policy                 According to the DOE-PMR, property managers are required to
                       establish extraordinary procedural and physical controls to protect
                       sensitive items, including the use of receipts or custody documents
                       at the time of assignment or at the time of any change of custody.
                       Any change in custody is to be promptly reported to the property
                       management team. In addition, DOE Manual 473.2-2, “Protective
                       Force Program Manual,” states that offsite storage of firearms must
                       be specified and authorized by the head of the field element.

                       NTC policy states that any weapon leaving the armory will be
                       logged on a “Property Issuance Form” and that all weapons leaving
                       the complex overnight “must be formally loaned.” The formal
                       loaning of a weapon requires the use of a “Personnel Property
                       Loan Agreement,” wherein the borrower agrees that the property
                       shall not be transferred to a third party.

                       OST policy states that firearms will be issued to special agents and
                       instructors using a “weapons card” that identifies the weapon by
                       type, serial number, and stock number. Further, if a firearm is to
                       be used for “a class outside [OST],” the firearm will be issued on
                       an OST hand receipt, “Equipment Issue Receipt.” OST policy also
                       states that these firearms must be returned to the armory and not
                       stored at a private residence; any exception requires prior written
                       approval from the property manager.

Violations of Policy   We determined that on October 9, 2003, a Wackenhut employee
                       signed out the two Government owned handguns from the NTC
                       armory using a “Weapons/Equipment Issuance Form.” However,
                       neither a “Personnel Property Loan Agreement” nor a “weapons
                       card” was utilized.

                       When the Wackenhut employee signed out the two handguns from
                       the NTC, he identified the reason for issuance as a “class.”
                       However, we determined that no classes were scheduled or
                       conducted as part of the exercise at the NTS. Further, the
                       Wackenhut employee immediately passed the handguns to a
                       second Wackenhut employee.

                       The second Wackenhut employee kept the two handguns in his
                       possession for five days prior to transporting them on an NNSA
                       aircraft to Nevada. Once in Nevada, he took the handguns onto the
                       NTS. He told us that he transferred custody to an NTS armorer.
                       However, the NTS armorer told us that he did not have a record of




Page 5                                                            Details of Findings
                  storing the weapons, nor did he recall storing them. The second
                  Wackenhut employee told us that after he received the handguns
                  back from the armorer, he passed the handguns to a third
                  Wackenhut employee, who transported the Government owned
                  handguns, as well as the second Wackenhut employee’s privately
                  owned handgun, back to Albuquerque, New Mexico, in an OST
                  vehicle.

                  When the third Wackenhut employee arrived in the Albuquerque
                  area around 3:30 a.m. on November 1, 2003, he met his spouse at a
                  truck stop outside Albuquerque, where he passed the two
                  Government owned handguns and one privately owned handgun to
                  her. He told us that he was concerned about transporting the
                  handguns onto Kirtland Air Force Base without the proper custody
                  documentation. We were told the Wackenhut employee’s spouse
                  stored the handguns in her private vehicle, which she then parked
                  in the garage at her home. The next day, the third Wackenhut
                  employee passed the handguns to the Wackenhut employee who
                  had taken them to Nevada, and he returned the handguns to the
                  NTC armory.

                  At no time when the Government owned handguns were being
                  passed among the individuals was a receipt of custody executed by
                  any of the individuals involved, nor was an exception to policy
                  approved. Further, we did not find any authorization by the head
                  of a field element allowing offsite storage of the two Government
                  owned handguns over the 25-day period they were signed out of
                  the NTC armory, nor was the transfer of the handguns to a private
                  citizen authorized.

RECOMMENDATIONS   We recommend that the Assistant Deputy Administrator for Secure
                  Transportation, in coordination with the Director, Nuclear
                  Safeguards and Security Program:

                  1. Ensure that all Federal and contractor employees comply with
                     DOE policy on the introduction of prohibited articles into
                     security areas.

                  2. Develop and implement policies and procedures for the
                     management and control of the weapons relocated from the
                     Fort Chaffee armory to the NTC armory.




Page 6                                                     Recommendations
             3. Ensure that all Federal and contractor employees comply with
                DOE policy regarding the issuance, handling, and custody of
                firearms.

             4. Ensure that Wackenhut takes appropriate action with regard to
                the Wackenhut employees who did not adhere to established
                requirements regarding the handling of the two Government
                owned handguns and the repair of the privately owned
                handgun.

             5. Take appropriate action with regard to the Federal employee
                who violated DOE policy when he brought an unauthorized
                privately owned handgun onto the NTS and then had a
                contractor employee repair it.

             6. Ensure that DOE is not bearing the cost of the repairs made to
                the Federal employee’s privately owned handgun.

MANAGEMENT   In comments on our draft report, management concurred with our
COMMENTS     recommendations and identified corresponding corrective actions.
             However, NNSA also stated that “Since the issues identified in
             both reports occurred at the same time during the same exercise,
             there is no indication of systemic weaknesses.”

INSPECTOR    In general, management’s comments were responsive to our
COMMENTS     findings and recommendations. Regarding NNSA’s comment
             about systemic weaknesses, we note that our conclusion was that
             firearms policies and procedures were systematically violated.
             Given the number and type of abuses regarding firearms that
             occurred, we continue to believe that DOE policies and procedures
             relating to firearms were systematically violated by OST-affiliated
             personnel. Specifically, (1) Government owned and privately
             owned handguns were introduced onto two DOE facilities without
             proper authorization; (2) Government owned and privately owned
             handguns were transported onboard an NNSA aircraft without
             authorization; (3) Government owned handguns were signed out of
             an NNSA armory without following armory requirements for the
             issuance of firearms; (4) Government owned handguns changed
             custody several times without required change of custody
             documentation; (5) a non-DOE affiliated person was given custody
             of Government owned handguns; and (6) Government owned
             handguns were stored off-site without authorization.




Page 7                                                 Management and
                                                       Inspector Comments
Appendix A

SCOPE AND     We performed the fieldwork for this inspection between
METHODOLOGY   December 2003 and September 2004. We interviewed Federal and
              contractor personnel having property management, firearms
              accountability and maintenance, and firearms utilization
              responsibilities. In addition, we interviewed the personnel alleged
              to be involved with this complaint. We also reviewed
              documentation pertaining to firearms controls, accountability, and
              issuance, as well as criteria for the control of sensitive items.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 8                                              Scope and Methodology
Appendix B




Page 9       Management Comments
Appendix B




Page 10      Management Comments
Appendix B




Page 11      Management Comments
Appendix B




Page 12      Management Comments
                                                                    IG Report No. DOE/IG-0674

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
